                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF NESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A09030016
                                                                                11          Page 1 of 1
                                                                                                             11
          OIG investigated an allegation that an NSF office1has a performance policy that predetermines
          the maximum number of outstanding performance evaluations, so as to limit the number of
          individuals permitted to receive an outstanding performance evaluation in each performance
          period. We opened an investigation to determine whether the policy exists and whether it
          violates the applicable federal regulation.2

          Upon investigation, OIG determined that the NSF office instituted related guidance, but that the
          guidance at issue complies with the applicable federal regulation. However, OIG recommended
          that NSF management consider clarifying the guidance with a reference to the applicable federal
          regulation.

          No further OIG action is warranted, and this case is closed.




          ' Redacted
            5 C.F.R. 430.208 (c)




\ISF OIG Form 2 (1 1/02)
